App.l

IN THE SUPREME COURT OF ALABAMA
September 27, 2019
1180108
Marian S.A. Tipp v. JPMC Specialty Mortgage, LLC
(Appeal from Mobile Circuit Court: CV-18-165).

ORDER
This Motion for Leave to File Petition for
Rehearing En Banc filed by Marian S.A. Tipp on
September 3, 2019, having been fully considered,
IT IS ORDERED that the motion is DENIED.
Witness my hand this 27th day of September,
2019.

/s/ Julia Jordan Weller
Clerk, Supreme Court of Alabama

cc:

Marian S.A. Tipp
Jason Wayne Bobo
Sandy Grisham Robinson
Michael Elliot Turner

App.2

IN THE SUPREME COURT OF ALABAMA

August 27, 2019
1180108 Marian S.A. Tipp v. JPMC Specialty
Mortgage, LLC (Appeal from Mobile Circuit Court:
CV-18-165).
CERTIFICATE OF JUDGMENT
WHEREAS, the appeal in the above referenced
cause has been duly submitted and considered by the
Supreme Court of Alabama and the judgment
indicated below was entered in this cause on August
9, 2019.
Affirmed. No Opinion. Bryan J - Parker, C.J.,
and Shaw, Mendheim, and Mitchell, JJ concur,
See Rule 53(a)(1) and (a)(2)(F), Ala. R. App. P.
NOW, THEREFORE, pursuant to Rule 41,
Ala. R. App., IT IS HEREBY ORDERED that this
Court's judgment in this cause is certified on this
date. IT IS FURTHER ORDERED that, unless
otherwise ordered by this Court or agreed upon by
the parties, the cost of this cause are hereby taxed as
provided by Rule 35, Ala. R. App. P.

App.3

I, Julia J. Well, as Clerk of the Supreme Court
of Alabama, do hereby certify that the foregoing is a
full, true and correct copy of the instrument(s)
herewith set out its same appear(s) of record in said
Court.

Witness my hand this 27th day of September, 2019.
/s/ Julia Jordan Weller
Clerk, Supreme Court of Alabama

App.4

THE COURT OF CIVIL APPEALS
May 14, 2019
2180147
Marian S.A. Tipp v JPMC Specialty Mortgage, LLC
(Appeal from Mobile Circuit Court CV-18-165)

TRANSFER NOTICE
You are hereby notified that the following
action was taken in the above cause, by the Court of
Civil Appeals.
Transferred to the Supreme Court of Alabama
pursuant to ยง12-3-15, Ala. Code 1975.

/s/Rebecca C. Oates
Rebecca C. Oates
Clerk, Court of Civil
Appeals

App.5

IN THE
CIRCUIT COURT OF
MOBILE COUNTY, ALABAMA
Tipp Marian S A,
Plaintiff
v

Case No.: CV-2018-000165.00

JPMC Specialty Mortgage LLC,
Defendant

ORDER
MOTION TO VACATE OR MODIFY filed by
MARIAN S A TIPP is hereby DENIED.
DONE this 18th day of September, 2018.
/s/John R Lockett
Circuit Judge

App.6

IN THE
CIRCUIT COURT OF
MOBILE COUNTY, ALABAMA
Tipp Marian S A,
Plaintiff
v

Case No.: CV-2018-000165.00

JPMC Specialty Mortgage LLC,
Defendant
ORDER
MOTION TO DISMISS, OR IN THE ALTERNATIVE
SUMMARY
JUDGMENT
filed
JPMC
by
SPECIALTY
MORTGAGE
LLC
is
hereby
GRANTED.
This case is hereby DISMISSED, with prejudice.
Costs are taxed as paid.
DONE this 7th day of August, 2018.
/s/ John R Lockett
Circuit Judge

Additional material
from this filing is
available in the
Clerk's Office.

